November 12, 2020
By Electronic Filing
The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Freeman v. Wainwright, No. 20-490
Dear Mr. Harris:
Pursuant to the Court’s order of March 19, 2020, modifying the Court’s rules and
practices in light of COVID-19, petitioner respectfully requests that the Court delay distribution
of the petition for certiorari, brief in opposition, and forthcoming reply brief in the abovecaptioned case. Respondent filed and served its brief in opposition on November 9, 2020, and
thus the Court may distribute the petition and briefs on or after November 23, 2020.
2020.

We request a delay of 14 days, which would permit distribution on or after December 7,

Petitioner requires additional time to file its reply brief because COVID-19 has displaced
petitioner’s counsel from their offices and made coordination with petitioner, who is
incarcerated, more difficult. Specifically, COVID-19-related restrictions have led to delays in
scheduling contact between petitioner and counsel and in delivering case documents to
petitioner.
Counsel for respondent consents to this request.
Sincerely,
/s/ Mark W. Mosier
Mark W. Mosier
Counsel for Petitioner

cc:

See attached service list

Service List
Benjamin Michael Flowers
Ohio Attorney General Dave Yost
30 E. Broad St.
Columbus, OH 43215
(614)-466-8980
benjamin.flowers@ohioattorneygeneral.gov
Counsel for Lyneal Wainwright

